APPENDIX TABLE OF CONTENTS
Order of the Michigan Supreme Court
(June 2, 2021) ..................................................... 1a
Order of the Michigan Supreme Court
(June 2, 2021) ..................................................... 2a
Opinion of the Court of Appeals State of
Michigan (December 10, 2020) .......................... 3a
Order of the Circuit Court for the County of
Ingham (January 10, 2019) .............................. 29a
Bench Ruling Transcript, Relevant Excerpts
(January 10, 2019)............................................ 31a
Motion Hearing Transcript, Relevant Excerpts
(April 29, 2019) ................................................. 36a

App.1a
ORDER OF THE
MICHIGAN SUPREME COURT
(JUNE 2, 2021)
MICHIGAN SUPREME COURT
LANSING, MICHIGAN
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
BRUCE H. ZITKA,
Defendant-Appellant.
________________________
SC: 162477
COA: 349491
Ingham CC: 17-000105-FH
Before: Bridget M. MCCORMACK, Chief Justice.,
Brian K. ZAHRA, David F. VIVIANO, Richard H.
BERNSTEIN, Elizabeth T. CLEMENT, Megan K.
CAVANAGH, Elizabeth M. WELCH, Justices.
On order of the Court, the application for leave
to appeal the January 7, 2021 judgment of the Court
of Appeals is considered, and it is DENIED, because
we are not persuaded that the questions presented
should be reviewed by this Court.
/s/ Larry S. Royster
Clerk

App.2a
ORDER OF THE
MICHIGAN SUPREME COURT
(JUNE 2, 2021)
MICHIGAN SUPREME COURT
LANSING, MICHIGAN
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
SUSAN K. HERNANDEZ-ZITKA,
Defendant-Appellant.
________________________
SC: 162479
COA: 349494
Ingham CC: 17-000102-FH
Before: Bridget M. MCCORMACK, Chief Justice.,
Brian K. ZAHRA, David F. VIVIANO, Richard H.
BERNSTEIN, Elizabeth T. CLEMENT, Megan K.
CAVANAGH, Elizabeth M. WELCH, Justices.
On order of the Court, the application for leave
to appeal the January 7, 2021 judgment of the Court
of Appeals is considered, and it is DENIED, because
we are not persuaded that the questions presented
should be reviewed by this Court.
/s/ Larry S. Royster
Clerk

App.3a
OPINION OF THE COURT OF APPEALS
STATE OF MICHIGAN
(DECEMBER 10, 2020)
APPROVED FOR PUBLICATION
JANUARY 7, 2021, 9:05 A.M.
STATE OF MICHIGAN COURT OF APPEALS
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
BRUCE H. ZITKA,
Defendant-Appellant.
________________________
No. 349491
Ingham Circuit Court LC No. 17-000105-FH
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
v.
SUSAN K. HERNANDEZ-ZITKA,
Defendant-Appellant.
________________________
No. 349494

App.4a
Ingham Circuit Court LC No. 17-000102-FH
Before: MARKEY, P.J., and METER
and GADOLA, JJ.
PER CURIAM.
Defendants Bruce H. Zitka and Susan K. Hernandez-Zitka1 each appeal as of right their convictions,
following a joint jury trial, of three counts of conducting
an unlicensed gambling operation, MCL 432.218(1)(a),
and three counts of using a computer to commit a
crime, MCL 752.796 and MCL 752.797(3)(e). The trial
court sentenced both defendants to five years’ probation, with one year to be served in jail, subject to
suspension upon successful completion of probation.
In both appeals, we affirm.
This case was previously before this Court when
the prosecution appealed an order granting defendants’
motion to quash and dismissing all charges. The trial
court, relying on the outcome of an earlier civil lawsuit
brought by the Norton Shores city attorney in a civil
nuisance abatement action, ruled that the prosecutor
was collaterally estopped from bringing this criminal
action. This Court reversed that decision and remanded
the case to the trial court. People v Zitka, 325 Mich.
App. 38, 53; 922 N.W.2d 696 (2018). This Court’s prior
decision provides the following summary of the relevant
background facts that led to the civil litigation:
Defendants own and operate three Internet
lounges located in Muskegon County: The
Landing Strip, The Lucky Mouse, and Fast
1 We will refer to defendant Bruce H. Zitka as “Zitka,” and defendant Susan K. Hernandez-Zitka as “Hernandez-Zitka.”

App.5a
Lane. At these establishments, customers can
open accounts to wager on and play games
online, including slot and lottery-type games.
On April 14, 2015, the Michigan Gaming Control Board (MGCB) began an investigation
to determine whether illegal gambling activities were taking place at the lounges. The
MGCB interrupted this investigation, however, when the Norton Shores Police Department began its own independent investigation
of allegations that unlawful gambling activities were taking place at The Landing Strip.
The city attorney for Norton Shores subsequently filed in the Muskegon Circuit Court
a civil-nuisance-abatement action against The
Landing Strip under the local zoning code.
The parties ultimately agreed to dismissal
of that case, and the court entered a stipulated order of dismissal on January 28, 2016,
stating in part, “Defendants agree to operate
the Landing Strip LLC without violation of
any applicable gambling laws or ordinances as
it is currently operating.” (Emphasis added.)
Following the conclusion of the civil lawsuit,
the MGCB resumed its investigation of the
three lounges in February 2016. As a result
of this investigation, defendants were each
charged with three counts of conducting a
gambling operation without a license, MCL
432.218(1)(a), and three counts of using a
computer to commit a crime, MCL 752.796
and MCL 752.797(3)(e). The amended information alleges an offense period extending
from February 1, 2016, through October 31,

App.6a
2016. The district court conducted a two-day
preliminary examination and, on January 27,
2017, issued an opinion and order determining
that probable cause supported the charges
and binding over the cases to the Ingham
Circuit Court. In reaching this conclusion, the
district court determined that the offense of
using a computer to commit a crime, MCL
752.796 and MCL 752.797(3)(e), is a specific-intent crime, while conducting a gambling
operation without a license, MCL 432.218
(1)(a), constitutes a general intent crime.
With respect to the Muskegon County Circuit Court’s stipulated order of dismissal,
the district court was “not persuaded that
the . . . [order], in a civil proceeding, is particularly helpful here in relation to the
probable cause standard.”
In the Ingham Circuit Court, defendants filed
identical motions to quash, arguing that the
district court erred by determining that the
offense of conducting a gambling operation
without a license was a general-intent crime
as opposed to a specific-intent crime. Defendants further asserted that because the stipulated order dismissing the civil case reflected
a judicial determination that defendants were
operating legally, defendants were acting
under a mistake of law that negated the mens
rea elements of both offenses. The circuit
court granted defendants’ motions to quash
and stated on the record as follows:
My opinion is based upon the fact that the
Attorney General of this state, in part, has

App.7a
the authority to intervene in any litigation
that they want to that would be something
that relates to state law, I believe they could
have gone back to the circuit judge in this
case and asked to intervene and have this
reargued in some fashion as to its applicability.
This appears to be a situation where apparently the Attorney General’s office and their
other agencies were so aggrieved by these
poor people that they felt it necessary to
investigate for months and months as to
whether they existed. They could have walked
right in and seen. But in my opinion, when
a circuit judge of—is it Muskegon?
***
. . . [The Muskegon Circuit Court judge] has
the right to make these rulings and put
these rulings in effect. But as I have seen in
my cases, I have been chastised. I have been
appealed. I have even had people come in
here and consent to things and your office
appealed that because the consent was wrong.
I am just amazed. These cases are dismissed. [Zitka, 325 Mich. App. at 41-43 (footnote
omitted).]
On appeal, this Court held that the circuit court
abused its discretion in determining that the state’s
criminal charges were barred by collateral estoppel.
Id. at 47. This Court reasoned that the two proceedings
were not substantially similar and that the state Attorney General was not in privity with the city attorney.
Id. at 45-47. It also stated that the purposes of the

App.8a
two proceedings were “fundamentally different,” which
is a recognized basis for declining to apply collateral
estoppel. Id. at 47.
In its analysis of the relevant statutes, this Court
stated that the language of MCL 432.218(1)(a) indicated
that conducting an unlicensed gambling operation was
a general-intent crime, as opposed to a specific-intent
crime. Id. at 50-51. This Court then held that defendants’ defenses of mistake of law and entrapment by
estoppel were not applicable. Id. at 52. This Court
specifically held that defendants’ mistake-of-law argument had “no effect” on the charges of conducting
an unlicensed gambling operation because it was a
general-intent crime. Id. In particular, this Court concluded that “[d]efendants . . . need not have intended
to violate the law but rather simply have intended to
perform the act of ‘conducting’ an unlicensed gambling
operation” and that “defendants’ alleged belief that
they were operating their establishments in compliance with the law is immaterial to a determination of
whether they committed this offense.” Id. This Court
also held that defendants’ argument was “equally
unavailing with respect to the specific-intent charges
brought under MCL 752.796 and MCL 752.797(3)(e).”
Id. This Court noted that entrapment by estoppel and
mistake of law “both require that the alleged reliance
on a public official’s representation be ‘reasonable’ or
‘justified,’” and that “[d]efendants are unable to meet
this requirement.” Id. at 52-53. Accordingly, this Court
reversed the trial court’s dismissal order and remanded
for further proceedings. Id. at 53.
On remand, defendants moved to admit evidence
of the Norton Shores investigation and the results of
that civil lawsuit. Defendants argued that this evidence

App.9a
was necessary to defend against the charges, even
though this Court had ruled that MCL 432.218(1)(a)
was a general-intent crime and that it was unnecessary
to show that defendants intended to violate the law.
The trial court denied defendants’ motion, ruling that
the evidence was not admissible in light of this Court’s
decision in Zitka. Following a joint jury trial, the jury
found both defendants guilty of three counts each of
conducting an unlicensed gambling operation and
three counts of using a computer to commit a crime.
Defendants now appeal.
I.

Admissibility of the Civil Litigation

Defendants argue that the trial court abused its
discretion and violated their constitutional right to
present a defense by excluding evidence related to
the previous civil lawsuit at their criminal trial. In
particular, they argue that the dismissal order in the
civil lawsuit was admissible to show that they believed
they were acting in compliance with the law. We
disagree.
“The decision whether to admit evidence is within
a trial court’s discretion.” People v Katt, 468 Mich.
272, 278; 662 N.W.2d 12 (2003). “An abuse of discretion occurs when the trial court chooses an outcome
that falls outside the range of reasonable and principled
outcomes.” People v Johnson, 502 Mich. 541, 564; 918
N.W.2d 676 (2018) (quotation marks and citation
omitted). “A trial court also necessarily abuses its
discretion when it makes an error of law.” People v
Al-Shara, 311 Mich. App. 560, 566; 876 N.W.2d 826
(2015). “To the extent that the trial court’s ruling
involves an interpretation of the law or the application of a constitutional standard to uncontested facts,

App.10a
our review is de novo.” People v Tanner, 496 Mich.
199, 206; 853 N.W.2d 653 (2014) (quotation marks
and citation omitted). Likewise, “[t]his Court reviews
de novo whether defendant suffered a deprivation of
his constitutional right to present a defense.” People
v Steele, 283 Mich. App. 472, 480; 769 N.W.2d 256
(2009). Whether the law-of-the-case doctrine applies
is a question of law that we also review de novo. Ashker
v Ford Motor Co, 245 Mich. App. 9, 13; 627 N.W.2d 1
(2001).
“A defendant has a constitutionally guaranteed
right to present a defense, which includes the right
to call witnesses.” People v Yost, 278 Mich. App. 341,
379; 749 N.W.2d 753 (2008), lv den 483 Mich. 856
(2009). “But this right is not absolute: the accused
must still comply with established rules of procedure
and evidence designed to assure both fairness and
reliability in the ascertainment of guilt and innocence.”
Id. (quotation marks and citations omitted); see also
United States v Scheffer, 523 U.S. 303, 308; 118 S.Ct.
1261; 140 L.Ed.2d 413 (1998) (“A defendant’s interest
in presenting such evidence may thus bow to
accommodate other legitimate interests in the criminal
trial process.”) (quotation marks and citations omitted).
For example, consistent with our rules of evidence, “the
right to present a defense extends only to relevant
and admissible evidence.” People v Solloway, 316
Mich. App. 174, 198; 891 N.W.2d 255 (2016) (quotation marks and citation omitted). “Such rules do not
abridge an accused’s right to present a defense so long
as they are not ‘arbitrary’ or ‘disproportionate to the
purposes they are designed to serve.’” People v Unger,
278 Mich. App. 210, 250; 749 N.W.2d 272 (2008),
quoting Scheffer, 523 U.S. at 308.

App.11a
In considering defendants’ argument that the trial
court’s exclusion of the challenged evidence violated
their right to present a defense, the threshold question
is whether the circumstances or outcome of the Norton
Shores civil litigation was probative of any fact that
was of consequence to the determination of the
criminal action. As a general rule, “relevant evidence
is admissible,” and “[e]vidence which is not relevant
is not admissible.” MRE 402. “‘Relevant evidence’ [has
a] tendency to make the existence of any fact that is
of consequence to the determination of the action
more probable or less probable than it would be
without the evidence.” MRE 401. “[A] material fact
need not be an element of a crime or cause of action
or defense but it must, at least, be ‘in issue’ in the
sense that it is within the range of litigated matters
in controversy.” People v Mills, 450 Mich. 61, 68; 537
N.W.2d 909 (1995) (quotation marks and citation
omitted). This Court’s prior decision in Zitka establishes that the challenged evidence was not relevant,
and therefore, the trial court did not abuse its discretion by excluding the evidence.
A. Relevancy of the Civil Lawsuit to the
Gambling Operation Charge
This Court held in Zitka, 325 Mich. App. at 50-51,
that conducting a gambling operation without a
license is a general-intent crime. “‘[U]nder the doctrine
of the law of the case, if an appellate court has
passed on a legal question and remanded the case for
further proceedings, the legal question will not be
differently determined in a subsequent appeal in the
same case where the facts remain materially the
same.’” Ingham Co v Mich Co Rd Comm Self-Ins Pool,
329 Mich. App. 295, 303; 942 N.W.2d 85 (2019), quoting

App.12a
Bennett v Bennett, 197 Mich. App. 497, 500; 496
N.W.2d 353 (1992). The binding nature of the doctrine
typically “applies without regard to the correctness
of the prior determination.” People v Herrera (On
Remand), 204 Mich. App. 333, 340; 514 N.W.2d 543
(1994) (quotation marks omitted). However, “[p]articularly in criminal cases, the law of the case doctrine is
not inflexible and need not be applied if it will create
an injustice.” People v Phillips (After Second Remand),
227 Mich. App. 28, 33; 575 N.W.2d 784 (1997). An
“injustice” may occur when there has been an intervening change in the law, see People v Spinks, 206
Mich. App. 488, 496-497; 522 N.W.2d 875 (1994), or
“where the prior opinion was clearly erroneous,”
Phillips, 227 Mich. App. at 34, citing People v Wells,
103 Mich. App. 455, 463; 303 N.W.2d 226 (1981).
Accordingly, this Court explained that a mistakeof-law defense was not available to the charge of
conducting a gambling operation without a license
because the offense is a general-intent crime. Id. at
51-52. This Court stated:
Defendants therefore need not have intended
to violate the law but rather simply have
intended to perform the act of “conducting”
an unlicensed gambling operation. See People
v Beaudin, 417 Mich. 570, 573-574, 339
N.W.2d 461 (1983). Accordingly, defendants’
alleged belief that they were operating their
establishments in compliance with the law
is immaterial to a determination of whether
they committed this offense. [Zitka, 325 Mich.
App. at 52 (emphasis added).]
In addition, when discussing the additional charges
of using a computer to commit a crime, this Court

App.13a
held that defendants could not rely on the statement
by the Norton Shores city attorney in the civil suit to
defend their state criminal charges, stating:
Entrapment by estoppel and mistake-of-law
defenses both require that the alleged reliance
on a public official’s representation be “reasonable” or “justified.” Defendants are unable
to meet this requirement. They claim reliance
on the Norton Shores city attorney’s agreement in the stipulated order that operations
at The Landing Strip were in compliance with
applicable gambling laws and ordinances.
It cannot be said that a statement by a city
attorney in a civil suit involving a local
ordinance could be authoritative on a matter
of criminal state law such that reliance on
it was reasonable. The statement was not
made by the attorney general’s office, by the
MGCB, or by a county prosecutor. [Id. at
53.]
This Court’s analysis in Zitka demonstrates that
the trial court did not abuse its discretion by not
allowing defendants to present evidence of the Norton
Shores civil litigation at their criminal trial. We are
bound by the earlier decision in Zitka under both the
law-of-the-case doctrine and because this Court’s prior
decision is published. See MCR 7.215(C)(2) (“A published opinion of the Court of Appeals has precedential
effect under the rule of stare decisis.”).
Defendants wanted to introduce the evidence of
the civil dismissal order because it contained the
parties’ stipulation that “[d]efendants agree to operate
the Landing Strip LLC without violation of any applicable gambling laws or ordinances as it is currently

App.14a
operating.” Defendants maintain that this evidence
was relevant to show that they believed they were
operating their businesses in compliance with the
law. Even if defendants held this belief, however, this
Court’s decision in Zitka establishes that defendants’
alleged belief that they were operating their establishments in compliance with the law is immaterial
to whether they were “conducting” an unlicensed
gambling operation. Zitka, 325 Mich. App. at 52.
Defendants argue that this Court’s prior decision did
not totally foreclose this evidence for all purposes,
and that a relevant issue in this case was whether
they “intended to perform the act of ‘conducting’
an unlicensed gambling operation.” They maintain
that the stipulated civil order was relevant to that
issue because it indicated that they did not intend to
conduct “an unlicensed gambling operation.” However, this Court’s discussion in Zitka of the mens
rea required for conducting an unlicensed gambling
operation emphasized that the focus of this inquiry is
whether defendants intended to “operate” what
amounts to a gambling operation. This Court made it
clear that its holding rested on the volitional character
of the word “conducting,” not on the intent to cause
the outcome that their “conduct” set in motion. See
Zitka, 325 Mich. App. at 50 (“[T]he statute’s use of
the term ‘conducting’ evidences an intention that the
mens rea element of MCL 432.218(1)(a) be the intent
to perform the act of ‘conducting.’”).
Defendants are essentially taking the position that
the prosecutor needed to prove that they specifically
intended to operate an illegal gambling operation, or
to prove that they were operating a gambling operation
knowing that it was illegal. This position is not sup-

App.15a
ported by this Court’s decision in Zitka, in which this
Court held that the prosecutor was only required to
prove that the manner in which defendants intended
to operate their cafés constituted a gambling operation
within the meaning of the statute. MCL 432.218(1)(a)
provides that a person is guilty of a felony for “[c]onducting a gambling operation where wagering is used
or to be used without a license issued by the board.”
“Board” is defined as the “Michigan gaming control
board.” MCL 432.202(f). “Gambling operation” or
“casino gambling operation” refers to “the conduct of
authorized gambling games in a casino.” MCL 432.
202(w). MCL 432.202(v), defines the term “gambling
game” as:
any game played with cards, dice, equipment
or a machine, including any mechanical,
electromechanical or electronic device which
shall include computers and cashless wagering systems, for money, credit, or any representative of value, including, but not limited
to, faro, monte, roulette, keno, bingo, fan tan,
twenty one, blackjack, seven and a half, klondike, craps, poker, chuck a luck, Chinese
chuck a luck (dai shu), wheel of fortune,
chemin de fer, baccarat, pai gow, beat the
banker, panguingui, slot machine, any banking or percentage game, or any other game
or device approved by the board, but does not
include games played with cards in private
homes or residences in which no person
makes money for operating the game, except
as a player. [Emphasis added.]
Therefore, while evidence concerning whether defendants’ operation met the statutory requirements for a

App.16a
gambling operation involving “gambling games” was
relevant, evidence of whether defendants specifically
intended their operation to be an unlicensed gambling
operation or specifically intended to violate MCL
432.218(1)(a) was not relevant. Accordingly, the trial
court did not abuse its discretion by excluding this
evidence. Further, because the evidence was not
relevant, the trial court’s exclusion of this evidence
did not violate defendants’ right to present a defense.
Zitka also argues that this evidence should have
been allowed after the prosecution introduced evidence
that defendants knew that their businesses were
operating illegally, such as cease and desist letters
defendants saw in connection with other investigations.
The record discloses that the prosecutor cross-examined
defendants about their knowledge in response to
defendants’ claims that they did not know that what
they were doing was illegal. Arguably, the trial court
could have prevented defendants from introducing
their lack of knowledge of the legality of their operations
because their subjective beliefs were not relevant.
However, because the trial court allowed defendants
to introduce limited testimony about their knowledge,
the prosecutor did not act improperly by cross-examining them on that subject to challenge the credibility of their testimony. Thus, we reject Zitka’s
claim that defendants should have been allowed to
introduce additional irrelevant evidence in rebuttal.
B. Relevancy of the Evidence to the Unlawful
Use of a Computer Charges
With respect to the crime of using a computer to
commit a crime, MCL 752.796 provides:

App.17a
(1) A person shall not use a computer program,
computer, computer system, or computer
network to commit, attempt to commit,
conspire to commit, or solicit another person
to commit a crime.
(2) This section does not prohibit a person from
being charged with, convicted of, or punished
for any other violation of law committed by
that person while violating or attempting to
violate this section, including the underlying
offense.
(3) This section applies regardless of whether the
person is convicted of committing, attempting
to commit, conspiring to commit, or soliciting
another person to commit the underlying
offense.
In the prior appeal, this Court characterized the
offense of using a computer to commit a crime as a
specific-intent crime. See Zitka, 325 Mich. App. at 52.
However, this Court did not explain what specific
intent is necessary for a conviction under MCL 752.796.
The language of MCL 752.796 prohibits the use of a
computer to “commit a crime.” The alleged crime in
this case was “[c]onducting a gambling operation in
which wagering is used or to be used without a
license issued by the board.” MCL 432.218(1)(a). “[I]n
order to commit a specific intent crime, an offender
must subjectively desire or know that the prohibited
result will occur, whereas in a general-intent crime,
the prohibited result need only be reasonably expected
to follow from the offender’s voluntary act, irrespective
of any subjective desire to have accomplished such
result.” Gould, 225 Mich. App. at 85, quoting Lerma,
66 Mich. App. at 569-570 (emphasis added). Thus, as

App.18a
applied to this case, to obtain a conviction under
MCL 752.796, the prosecutor was required to prove
that defendants specifically intended to “use[] a
computer program, computer system, or computer
network to commit, attempt to commit, conspire to
commit, or solicit another person to commit” the
general-intent crime of “[c]onducting a gambling
operation in which wagering is used or to be used
without a license issued by the board.” The specific
intent necessary to commit this offense is the intent
to use a computer to conduct a gambling operation
without a license, which constitutes a crime. Contrary
to what defendants suggest, the prosecutor was not
required to prove that they used the computer with the
specific intent or knowledge that the gambling operation they were conducting was illegal. This would
effectively convert the underlying offense into a specific-intent crime, contrary to this Court’s decision in
Zitka. Accordingly, the Norton Shores investigation
and the settlement in that civil lawsuit would be no
more relevant to determining defendants’ guilt or
innocence for the crime of unlawful use of a computer
than for the underlying crime of conducting the
gambling operation. Therefore, the trial court did not
err when it precluded defendants from introducing
evidence of the civil lawsuit to show that defendants
lacked the specific intent necessary to support a conviction of using a computer to commit a crime.
C. Ineffective Assistance
Zitka also argues that defense counsel was ineffective for failing to seek introduction of the evidence
of the order in the civil case to rebut the prosecution’s
repeated introduction of evidence that defendants
knew what they were doing was illegal. To establish

App.19a
ineffective assistance of counsel, a defendant must
show that: (1) counsel’s representation “fell below an
objective standard of reasonableness”; and (2) but for
counsel’s deficient performance, there is a reasonable
probability that the outcome of the proceeding would
have been different. People v Vaughn, 491 Mich. 642,
669; 821 N.W.2d 288 (2012), citing Strickland v
Washington, 466 U.S. 668, 688, 694; 104 S.Ct. 2052;
80 L.Ed.2d 674 (1984). “A reasonable probability is
a probability sufficient to undermine confidence in the
outcome.” Strickland, 466 U.S. at 694. The defendant
must “overcome the strong presumption that counsel’s
performance was born from a sound trial strategy.”
People v Trakhtenberg, 493 Mich. 38, 52; 826 N.W.2d
136 (2012).
This Court had already determined that evidence
of the Norton Shores litigation was “immaterial to a
determination of whether [defendants] committed
[the offense of conducting an unlicensed gambling
operation.]” Zitka, 325 Mich. App. at 52. Despite this
ruling, defense counsel endeavored to obtain a ruling
allowing the evidence, but the trial court ruled that
the evidence was not admissible. Given this Court’s
prior decision in Zitka and the trial court’s subsequent
ruling disallowing the evidence, Zitka cannot show
that counsel’s decision to refrain from again moving
to admit this evidence was objectively unreasonable.
“Failing to advance a meritless argument or raise a
futile objection does not constitute ineffective assistance
of counsel.” People v Ericksen, 288 Mich. App. 192, 201;
793 N.W.2d 120 (2010).

App.20a
II. Character Witnesses
Hernandez-Zitka argues that the trial court
abused its discretion by granting the prosecution’s
motion to preclude her from offering character witnesses to testify regarding her character and reputation
for being a law-abiding citizen. We disagree.
MRE 404(a)(1) permits the accused to introduce
evidence of a “pertinent” character trait, and a pertinent
trait must relate to the charged crime. Accordingly, a
defendant has a “right to introduce evidence of his
character to prove that he could not have committed
the crime.” People v Whitfield, 425 Mich. 116, 130;
388 N.W.2d 206 (1986); see also People v Roper, 286
Mich. App. 77, 93; 777 N.W.2d 483 (2009) (“Under MRE
404(a)(1) a defendant may offer evidence that he or
she has a character trait that makes it less likely
that he or she committed the charged offense.”). One
example of a pertinent trait would be a defendant’s
character for peacefulness in a crime involving alleged
violent conduct. Id. at 93-96. As another example,
our Supreme Court has held that evidence of “the
truthfulness of a person” is admissible “in an action
for defamation of the person’s allegedly ‘untruthful’
character.” People v Harris, 458 Mich. 310, 318; 583
N.W.2d 680 (1998).
Hernandez-Zitka fails to explain how her truthful
character would have made her less likely to have
committed the offense of conducting an unlicensed
gambling operation. Her truthfulness or general reputation for adhering to the law has no bearing on
whether she intended to operate the cafés in a manner that met the definition of a gambling operation,
particularly where this Court had already determined that defendants’ intent to “break the law” was

App.21a
not relevant to the illegal gambling charges. Because
Hernandez-Zitka sought to introduce this evidence
only to make an irrelevant point, the trial court did
not err by excluding the evidence.
III. Res Judicata and Entrapment by Estoppel
Hernandez-Zitka also argues that res judicata
and entrapment by estoppel are valid defenses to her
convictions in this case. She recognizes that this
Court previously ruled that entrapment by estoppel
did not apply, but claims that the prior decision was
made without all necessary facts. We review de novo
whether res judicata bars a subsequent action. Adair
v Michigan, 470 Mich. 105, 119; 680 N.W.2d 386
(2004). Whether entrapment by estoppel applies is a
question of law that we review de novo. People v Fyda,
288 Mich. App. 446, 456; 793 N.W.2d 712 (2010).
Although the doctrines of res judicata and collateral estoppel are distinguishable, they share the
common element of privity. In Zitka, 325 Mich. App.
at 44, this Court discussed the doctrine of collateral
estoppel as follows:
The doctrine of collateral estoppel generally
precludes relitigation of an issue in a
subsequent proceeding when that issue has
previously been the subject of a final judgment
in an earlier proceeding. Porter v Royal Oak,
214 Mich. App. 478, 485; 542 N.W.2d 905
(1995). Collateral estoppel applies when the
following three conditions are satisfied: “(1)
a question of fact essential to the judgment
must have been actually litigated and determined by a valid and final judgment; (2) the
same parties must have had a full [and fair]

App.22a
opportunity to litigate the issue; and (3)
there must be mutuality of estoppel.” Monat
v State Farm Ins Co, 469 Mich. 679, 682-684;
677 N.W.2d 843 (2004) (quotation marks
and citations omitted; alteration in original).
Mutuality of estoppel requires that the party
seeking to invoke the doctrine establish that
his or her adversary was either a party to,
or in privy with a party to, the previous
action. Id. at 684.
In contrast, res judicata operates to bar a second
action when “(1) the first action was decided on the
merits, (2) the matter contested in the second action
was or could have been resolved in the first, and (3)
both actions involve the same parties or their privies.”
Dart v Dart, 460 Mich. 573, 586; 597 N.W.2d 82 (1999).
Res judicata is broadly applied in Michigan, barring
not only claims already litigated, but also every claim
arising from the same transaction that could have
been brought by exercising reasonable diligence. Id.
The burden of establishing res judicata is upon the
party asserting that doctrine. Baraga Co v State Tax
Comm, 466 Mich. 264, 269; 645 N.W.2d 13 (2002).
Under either doctrine, the proponent must demonstrate the existence of privity in connection with the
earlier action. Id.; Monat, 469 Mich. at 684.
In the context of collateral estoppel, this Court
determined in the prior appeal that the prosecutor in
this case and the Norton Shores city attorney in the
civil case were not in privity, despite the Attorney
General’s ability to intervene in the civil case under
MCL 14.28 and MCL 14.101. Thus, for the purpose of
deciding whether res judicata could apply to this
case, we are bound by our previous determination.

App.23a
Accordingly, Hernandez-Zitka cannot show that res
judicata barred her convictions in this case.
Hernandez-Zitka also argues that this Court erroneously decided that entrapment by estoppel was not
available as a defense in her criminal case. Again, we
are bound to follow this Court’s decision in Zitka,
325 Mich. App. at 51-53, rejecting the availability of
entrapment by estoppel in this case. The only new
argument offered by Hernandez-Zitka is that the
circuit court’s approval of the earlier settlement should
have allowed her to rely on the legality of her prior
actions. However, she does not discuss how the circuit
court’s decision to permit the Norton Shores settlement
was a binding determination regarding whether defendants’ operation of the Landing Strip was a violation
of MCL 432.218(1)(a), much less a decision concerning
other businesses not involved in the lawsuit. Accordingly, Hernandez-Zitka’s claim that she is entitled to
relief under the doctrine of entrapment by estoppel is
not persuasive.
IV. Opinion Testimony
Hernandez-Zitka also argues that the trial court
erred when it allowed prosecution witnesses to provide
opinion testimony regarding whether illegal gambling
was being conducted at defendants’ establishments.
We review the trial court’s decisions regarding the
admission of evidence for an abuse of discretion.
Katt, 468 Mich. at 278.
MRE 701 permits the admission of lay opinion
testimony and provides:
If the witness is not testifying as an expert,
the witness’ testimony in the form of opinions

App.24a
or inferences is limited to those opinions or
inferences which are (a) rationally based on
the perception of the witness and (b) helpful
to a clear understanding of the witness’ testimony or the determination of a fact in issue.
MRE 702 permits the admission of expert testimony
and provides:
If the court determines that scientific,
technical, or other specialized knowledge will
assist the trier of fact to understand the evidence or to determine a fact in issue, a
witness qualified as an expert by knowledge,
skill, experience, training, or education may
testify thereto in the form of an opinion or
otherwise if (1) the testimony is based on
sufficient facts or data, (2) the testimony is
the product of reliable principles and
methods, and (3) the witness has applied
the principles and methods reliably to the
facts of the case.
MRE 704 provides that “[t]estimony in the form of an
opinion or inference otherwise admissible is not
objectionable because it embraces an ultimate issue
to be decided by the trier of fact.” Nevertheless, there
are limits on an expert’s opinion testimony. An expert
witness may not “express[] an opinion regarding the
defendant’s guilt or whether the defendant had a
culpable state of mind,” People v McFarlane, 325 Mich.
App. 507, 523; 926 N.W.2d 339 (2018), or “testify about
the requirements of law which apply to the particular
facts in the case or to phrase his opinion in terms of a
legal conclusion,” People v Drossart, 99 Mich. App.
66, 75; 297 N.W.2d 863 (1980).

App.25a
Hernandez-Zitka challenges the testimony of
two witnesses who testified that defendants’ cafés
were illegal gambling operations. Mark Laberge, a
regulations officer with the MGCB, was asked to
explain, in his words, what an Internet café was. He
replied, “An illegal casino.” After defense counsel
objected, the trial court struck the term “illegal” from
his response.2 Later, after Laberge discussed his visit
to Fast Lane, how he was given a café user account
and access to the sweepstopia.com website, and how
he was able to obtain cash from the café when he won
games on the website, he was asked what he looked for
to determine whether gambling was occurring. Laberge
replied, “Was there consideration, was there chance,
and was there a prize.” He then testified that he
found all of these elements in this case. When defense
counsel objected, the trial court stated that counsel
would be able to cross-examine Laberge about this
opinion.
Laberge’s initial response that Internet cafés are
illegal casinos was improperly phrased in terms of a
legal conclusion. However, the trial court adequately
cured this error by quickly striking the objectionable
portion of his response. Defense counsel assented to
this remedy. Thus, Hernandez-Zitka cannot now claim
that this remedy was insufficient. See People v Buie,
491 Mich. 294, 312; 817 N.W.2d 33 (2012) (explaining
that a defendant should raise objections at a time
when the trial court can correct them and is not permitted to “harbor error as an appellate parachute”)
(quotation marks and citations omitted). With respect
2 The trial court later instructed the jury not to consider any
testimony that was excluded or stricken.

App.26a
to the later testimony, Laberge’s statement that the
Fast Lane operation shared the characteristics of
consideration, a game of chance, and a prize with
other gambling establishments was not an improper
comment on the ultimate question of HernandezZitka’s guilt. While this testimony supported a finding
that defendants’ cafés were gambling operations, this
question was left to the jury to determine. As with
the first comment, defense counsel was also permitted to cross-examine the witness regarding the bases
for his conclusions that the characteristics of a
gambling operation existed. Therefore, HernandezZitka is not entitled to relief.
Hernandez-Zitka also argues that the prosecutor
improperly elicited similar testimony from John
Lessnau, the manager of the criminal investigation
section for the MGCB. Lessnau was qualified as an
expert witness in the field of illegal gambling. After
discussing the same three elements of consideration,
chance, and a prize, Lessnau also discussed
Sweepstopia.com, stating that it did not have a
gambling license. He then testified about his investigation into the Internet sites accessed by the customers
at defendants’ cafés, and stated that roughly 80
percent of the traffic went to Sweepstopia.com. Over
defense counsel’s objection, Lessnau was then asked
about his opinion of Sweepstopia.com, and he testified that the website was operating illegally. This
was not improper expert testimony because Lessnau
testified about his opinion concerning the website,
not defendants’ cafés. This answer could have led the
jury to find that because a majority of defendants’
customers visited this website, the cafés were also
conducting illegal gambling operations. However,

App.27a
Lessnau did not provide this legal conclusion about
defendants’ cafés or their guilt.
After explaining sweepstakes and how they
differ from a lottery, and that Michigan does not have
an exception for “internet sweepstakes café” operations
from the general ban on unlicensed gambling, Lessnau
was asked his opinion about defendants’ operations.
Q.

Okay. Having been to both–to all three
locations here, were they internet sweepstakes
cafés, in your opinion?

A.

They were illegal gambling operations.

Defense counsel immediately objected, stating,
“Your Honor, if the court could clarify that the jury is
going to make the ultimate decision. That this is one
witness’ (sic) opinion, if the court would clarify that
for the jury.” The trial court replied that it had
already so instructed the jury twice and that the jury
would receive further instructions about its duty to
determine the weight and credibility of all of the evidence. The trial court later provided such an instruction.
As with Laberge’s testimony, the remedy that
defense counsel sought was sufficient to cure any
prejudice. See Buie, 491 Mich. at 312. The court’s
instructions made it clear to the jury that it would
ultimately decide whether defendants’ businesses were
illegal gambling operations.
“Jurors are presumed to follow their instructions,”
and jury instructions are presumed to “cure most
errors.” People v Mahone, 294 Mich. App. 208, 212;
816 N.W.2d 436 (2011).
Affirmed.

App.28a

/s/ Jane E. Markey
/s/ Patrick M. Meter
/s/ Michael F. Gadola

App.29a
ORDER OF THE CIRCUIT COURT FOR
THE COUNTY OF INGHAM
(JANUARY 10, 2019)
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR
THE COUNTY OF INGHAM
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
v.
SUSAN HERNANDEZ-ZITKA, BRUCE ZITKA,
Defendant.
________________________
Case Nos: 17-102-FH, 17-105-FH
Before: Hon. Rosemaire E. AQUILINA,
Circuit Court Judge.
This matter, having come before the Court, on
January 10, 2019, upon Defendant’s Motion in Limine
to offer evidence of the Norton Shore Civil Case and
the People’s cross Motion in Limine to exclude evidence of the Norton Shores Civil Case involving the
City of Norton Shores and the Landing Strip LLC.
The court having considered the pleadings in this
matter, oral arguments being heard, and the Court
being otherwise fully advised;

App.30a
IT IS HEREBY ORDERED that no testimony or
argument shall be presented to the jury in this
matter regarding the civil nuisance abatement case
between the City of Norton Shores and the Landing
Strip. LLC (specifically including but not limited to
an order stating the Landing Strip LLC was operating
legally).
IT IS HEREBY FURTHER ORDERED that
Defendants’ may not call Ron Panucci or any other
witness in their case-in-chief to offer evidence relating
to the Norton Shores civil abatement case or the
negotiated settlement of that case.
IT IS HEREBY FURTHER ORDERED that
Defendants preserve the issue of Notice regarding
MCL 432.218(1) on an appeal after trial if either one
or both defendant(s) are convicted at a jury trial.
SO ORDERED
/s/ Rosemaire E. Aquilina
Circuit Court Judge
Approved by:
/s/ Daniel C. Grano
Assistant Attorney General
Attorney for the People
/s/ David Dodge
Attorney for Defendants

App.31a
BENCH RULING TRANSCRIPT,
RELEVANT EXCERPTS
(JANUARY 10, 2019)
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR
THE COUNTY OF INGHAM
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
v.
SUSAN HERNANDEZ-ZITKA, BRUCE ZITKA,
Defendant.
________________________
Case Nos: 17-102-FH, 17-105-FH
Before: Hon. Rosemaire E. AQUILINA,
Circuit Court Judge.
APPEARANCES:
For the People:
Department of Attorney General
Daniel C. Grano (P70863)
Richmond M. Riggs (P33863)
Asst. Attorney Generals
Cadillac Place Building
Suite 10-202
Detroit, MI 48202

App.32a
For the Defendants:
David Dodge
40 Pearl Street NW
Suite 845
Grand Rapids, MI 49503
[January 10, 2019, Transcript p. 87]
THE COURT: I’ve had an opportunity to speak with
counsel in chambers. I really have heard enough
testimony. I have–and actually my file is back in
chambers, I don’t think I need it–I have heard
enough testimony today to be able to make my
ruling, and I think this case ought to go to a jury
trial.
First of all, mistakes of law does not negate general
intent, and the Court of Appeals in its decision
June 26, 2008, has gone through several pages
to get to that answer, basically.
The statute clearly, I think, has some holes in it.
The Court of Appeals doesn’t say that. I don’t
know if the Supreme Court will say that, but the
Court of Appeals painstakingly goes through and
decides what they think the legislature intended
as a general intent crime, so it really doesn’t
matter about all of the various research and this
and that that was done because people are presumed to know the law.
This case, however, is not in front of me, it’s in
front of the jury. I simply have to limit based on
the law what can come in and what cannot. I
am not going to allow the civil case or Judge
Pannucci’s testimony to come in, unless for some
reason the testimony, because I don’t have a

App.33a
crystal ball, would come in for impeachment or
some other purpose, but I think we need to
operate under those parameters
I truly believe with the record that we’ve made
here today that the case lies between the parties
in is this a sweepstakes versus is this gambling,
and the jury is astute enough to figure out all of
these issues. Counsel is astute enough to lay
them out in a succinct manner where the jury
can figure this out. Juries are very, very smart,
and as you all have laid out the testimony, both
counsel and your witnesses have laid it all out to
me, it is really crystal clear–although initially
one can think it’s complicated, it really is not a
complicated issue the way you all lay it out, and
I think the jury is the one who needs to decide
and we need to set this for a jury trial. Have I
stated the parameters and issues correctly?
What other record would you like to make, on
behalf of the people?
MR. GRANO: I believe you stated that correctly, Your
Honor. Nothing further for the people.
MR. DODGE: Your Honor, if I can just–just so in
complete fairness to the court and the Attorney
General’s office to state what we are preserving,
Your Honor, with all due respect with the court’s
ruling?
THE COURT: You may.
MR. DODGE: It’s our claim that our constitutional
and other right to present defense in the Conley
case, the Michigan case as well as the Michigan
U.S. Supreme Court authority that was in our
pleading, would include on this reasonable ex-

App.34a
pectation of what the voluntary act could do,
that it should include the Norton Shores order of
dismissal, continue to operate as you’re operating,
should include Judge Ronald Pannucci’s testimony.
I respect the court’s decision. Basically the Zitkas
will be testifying why it was sweepstakes.
And also, Your Honor, preserving the notice issues
in the statute in terms of whether it’s the Zitkas
or others, that we be able to, without having a
separate track, appeal right now to the Court
of Appeals and further delay, that that issue is
preserved for us to be able to present in the
event that there were convictions and an appeal
of right to the Court of Appeals and the Supreme
Court.
THE COURT: You’ve, I think, accurately stated what
you’ve been saying all along and what you said
to me in chambers, and your issues are preserved,
and just so we’re clear, everyone is presumed to
know the law, and just because you check on it,
if you don’t follow through, doesn’t mean that
you have approval to violate the law, and there’s
a number of different nuances here, so clearly
those issues need to be preserved and need to go
on up, but we also need resolution here. If you
do an interlocutory appeal or an appeal on this,
however which way, this case is going to be
delayed for years, and I don’t think that’s in
anybody’s best interest. We need to get to the facts,
have a jury decision, and then appeal everything
at once. It will be cheaper, more cost effective,
and time saving for everyone.

App.35a
MR. DODGE: And can we get a firm date, Your Honor,
because it involves the AG’s case and the court
has all—a voluminous docket with the county
prosecutor’s office.
THE COURT: I’ll work on that in just a minute. Is
there anything else you wish to address?
MR. GRANO: Nothing for the people.
[...]

App.36a
MOTION HEARING TRANSCRIPT,
RELEVANT EXCERPTS
(APRIL 29, 2019)
STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR
THE COUNTY OF INGHAM
________________________
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff,
v.
SUSAN HERNANDEZ-ZITKA, BRUCE ZITKA,
Defendant.
________________________
Case Nos: 17-102-FH, 17-105-FH
Before: Hon. Rosemaire E. AQUILINA,
Circuit Court Judge.
APPEARANCES:
For the People:
Department of Attorney General
Daniel C. Grano (P70863)
Richmond M. Riggs (P33863)
Asst. Attorney Generals
Cadillac Place Building
Suite 10-202
Detroit, MI 48202

App.37a
For the Defendants:
David Dodge
40 Pearl Street NW
Suite 845
Grand Rapids, MI 49503
[April 29, 2019, Transcript p. 4]
he intends to call several character witnesses on
Thursday. I’ve gotten statements from the
character witnesses regarding Mrs. Zitka being
good people, which I don’t doubt that they are,
but I don’t think character is an issue in this
trial.
I thought where we left this in January was
whether the operation in this case constituted
gambling or not. I don’t know why character
comes into play for that, so I would ask that we
either limit to maybe one character witness or
not have any character witnesses in this case because I don’t think it’s really relevant to any
issue that the trier of fact would be trying.
THE COURT: Thank you. Let me–just before I hear
a response, we are proceeding, it looks like on–
and I’ve got Bruce Zitka’s felony information and
it’s dated January 27, 2016. Just so I make sure
I have the counts all correct. Is that everyone’s
understanding, because I know sometimes they’re
amended and sometimes I don’t get the amendment right away.
MR. GRANO: Those are the proper counts, Your Honor.
I do think it was amended since then to just
narrow the date range to 2016.
THE COURT: Okay. But the counts are the same?

App.38a
MR. GRANO: The counts are correct.
THE COURT: It looks like in regard to Susan Zitka,
it’s also January 27, right?
MR. GRANO: Correct.
THE COURT: All right. Thank you. Response in regard
to character witnesses?
MR. DODGE: Thank you, Your Honor. Your Honor,
Bruce and Susan Zitka are each charged with
multiple felony counts, ten year as well as
potential consecutive computer charges, so under
rule 405, reputation or opinion, A, in all cases in
which evidence of character or trait of character
is admissible, proof may be made by testimony
as to reputation or by testimony in the form of
an opinion. On cross examination inquiry is
allowable into reports of specific instances of
conduct.
Your Honor, we noticed out and subpoenaed–we
have had a lot more–but four each. We have eight
persons under subpoena. All the subpoenas, the
witness’ statements, I asked each of them to email them to our office and the emails were sent
as received to Mr. Grano over the past several
weeks, so I believe that the relevant character
traits, at a minimum, would be truthfulness since
I anticipate both Bruce and Susan Zitka will be
testifying, and also, Your Honor, reputation and
opinion as law-abiding citizens, so that other
statement, arguably, could also be admissible,
but at a minimum I’m proposing that we present
four witnesses for each defendant on those two
relevant character traits under 405, and under–

App.39a
obviously under 608 would be the truthfulness
as well because they’re both going to testify.
THE COURT: Just one moment and, counsel, I’ll give
you an opportunity. Sir, you addressed 405, but
you looked at A. When we look at B, specific
instances of conduct, it says, in cases in which
character or a trait of character of a person is an
essential element of a charge, claim, or defense,
proof may also be made of specific instances of
that person’s conduct.
When reading this as a whole, and in looking at
relevance, I do not know how any character
witnesses are relevant because when I look at
the elements of counts one through six, it doesn’t
matter if they’re a good person or a bad person,
and I just heard the people say they have no
doubt that your clients are good people. That’s
simply not an element. Many defendants are
good people. They make mistake, and I don’t
know what happened here but I don’t see any
elements here that causes me to bring in character
evidence. Response.
MR. RIGGS: Judge, you’ve taken about three-quarters
of what I was going to say, but you’re exactly
right. Character is not a part of this. Counsel
also skipped over the first rule before that,
Michigan Rule of Evidence 404 which states that
generally evidence of a character or character
trait is generally not admissible for showing of
person’s action in conformity, and then for all
the reasons you just got done saying.
THE COURT: Yes. Any response, for the record?

App.40a
MR. DODGE: Well, Your Honor, they’re both going to
testify so under 608 any witness can be–present
information related to character for truthfulness
or untruthfulness, so at a minimum, since they’re
both going to testify, the witnesses should be
able to be called on that trait, but more broadly,
Your Honor, under 405, any time–these people
are both charged with multiple felonies. Their
reputation and the witness’ opinion regarding
them as law abiding citizens–if I’m a law abiding
citizens and–on multiple felonies and I have
witnesses to support that reputation or witness’
opinion, it should definitely come in under 405,
Your Honor. It is a relevant character trait. With
the counts that they’ve got, they should be able
to present that relevant character trait. It doesn’t
mean they go to church on Sunday. It just
means it’s a relevant character trait for people
that have known them to be able to testify to.
THE COURT: Well, sir, I suspect, and I don’t know
their history, do they have a criminal history?
MR. DODGE: Mr. Zitka has a prior 1988, which all of
his witnesses are aware of, larceny–attempt
larceny offense in Muskegon. All of his witnesses
know about that.
THE COURT: Okay. That wasn’t really my point, but
is that issue going to come up?
MR. GRANO: I was not planning on bringing that
up, Your Honor.
THE COURT: All right.
MR. GRANO: However–

App.41a
THE COURT: I don’t think that has any bearing here
unless you’re going to say he lied then, he’s lying
now, and then maybe I would let some of those
witnesses come in, but I don’t–I think at this
point it’s–actually, I know at this point for the
jury, it is up to them as to who’s telling the
truth, who’s not, and the jury instructions reflect
that. You can believe all, none, or part of any
person’s testimony and–so the credibility lies
within the hands of the jury. At this point there’s
been no attack, it’s not an element, and any
character evidence would be bolstering any testimony of your clients, and I don’t believe that it’s
in compliance with 404 and 405 that I allow it,
so there will be no character witnesses.
You can keep them under subpoena. As the trial
goes, there’s always surprises. If we need to revisit
it, I will, but at this point no character witnesses.
If you want to do an interlocutory appeal, go
ahead. I think I’m on solid ground here.
MR. DODGE: Your Honor, whenever it is convenient,
if I can mark as a separate record exhibit their
subpoenas and their emails that I sent to Mr.
Grano, that would be the content of their testimony. It was actually broader than what they
would be testifying to, but each one of them would
have been testifying to reputation for truth and
honesty, reputation as law abiding citizen, but
that way we’ll have the record completed that they
were subpoenaed and the synopsis of their statements were provided to the Attorney General’s
office.
THE COURT: I don’t have a problem with that. It
would be really an offer of proof and you’re making

App.42a
a separate record. My court reporter knows how
to do that separate record, and if you want to go
through each one and make a little synopsis of
what they’ll testify to, we can do an offer of proof
at this time and preserve it at this time. Is there
any objection to that?
MR. GRANO: No objection.
THE COURT: All right. Let’s do an offer of proof.
Take your time. Let’s go off the record.
(Discussion off the record at 9:59 a.m.)
THE COURT: We are back on the record.
MR. DODGE: Your Honor, one witness who’s subpoenaed for trial this week, James Nielsen, N-ie-l-s-e-n. Mr. Nielsen is the superintendent of
schools at the school where Mr. Zitka has been
on the school board for several years and at a
minimum he would be testifying he’s known
Bruce and Susan for nearly 30 years and that all
–he could testify about all of Bruce’s community
work including local baseball organizational
boards and others and his community service on
the school board, but James Nielsen, I believe,
would be an important witness to be able to
present. He’s known both of them for almost 30
years and, given his community standing, to
have him on the stand testifying that–regarding
truth and honesty as well as law abiding citizens
is an important part of our defense.
THE COURT: And, for the record, again, and if
plaintiff–I’m sorry, people want to address, you
certainly may, but, again, I would decline it on
the reason it’s, again, bolstering and it should be

App.43a
in the hands of the jury as to truthfulness and
this doesn’t go to any element, so unless I hear
something different, I suspect that’s going to be
the same ruling for all of them, but you may
continue making your argument and then I’ll
give the people an opportunity to sum it up.
MR. DODGE: Thank you. Janet Taylor, J-a-n-e-t, T-ay-l-o-r is a member of the Orchard View school
board. She served on the school board with Bruce
Zitka. She knows both Bruce and Susan. She
would be testifying about truthfulness as well as
law abiding citizen.
Diane L Bruursema, B-r-u-u-r-s-e-m-a, LMSW,
would be testifying that show knows the two
grandchildren. She actually works professionally
with the two grandchildren that Bruce and
Susan have guardianship of. She’s made several
observations of their care of their grand kids and
both of them will be testifying, Your Honor, how
they even got into this business. They both had
their separate, free-standing careers, but when
one of their grandchildren was born with a
heroin addiction, it necessitated–and the daughter
was totally under the radar. They had no idea
that there was any heroin activity going on, and
Susan left her position where she was working
as a health care provider doing insurance physicals
in people’s homes five a.m. in the morning and
all these odd hours and Mr. Zitka was working as
a finance manager at a General Motors dealership
and the care of a newborn and then four year old
necessitated them to do something other than
what they were doing before then, and that’s
how this first entity came about. It was in their

App.44a
neighborhood and they could provide the care to
these two grand kids.
She’s important in terms of being able to anchor
in her observations that Susan and Bruce are
the legal guardians of these two young children.
Right now, Your Honor, not only do we not get to
present Ron Pannucci as far as the back drop,
now we’re going to be stripped as far as providing
a context.
THE COURT: Every defendant comes to me before
juries with some kind of a story, and this really
is sympathy. There’s no sympathy element and,
in fact, they cannot rule on sympathy or empathy.
This is no different than someone who’s too
drunk and they walk into the wrong house and
break into that house to go sleep on the couch.
It’s still a home invasion. It may be pled down,
but it still is a crime even though there may
have been a good reason for it. It’s sympathy,
empathy, not an element. Denied. You may proceed.
MR. DODGE: Roni Alexander, R-o-n-i, Alexander,
knows both Bruce and Susan for more than 20
years through community activities, youth
wrestling program, and the grand children’s
activities. She would be testifying–Your Honor,
these witnesses could testify about either Bruce
or Susan so I had them divide it up four each
instead of having anything more than that, but
Roni Alexander is subpoenaed to be here.
Nancy Bon, B-o-n, known Bruce Zitka since he
was ten years old and he enlisted in the navy,
married Susan, and they raised their family.

App.45a
She’s known them for that many years, going on
50 years as far as what his reputation is and her
opinion
Tom Jasick, J-a-s-i-c-k, director of operation, GE
Aviation in Muskegon, known Bruce Zitka for
nearly 60 years. He’s got that many others that
he knows as far as what Bruce’s reputation is on
relevant character traits.
Jeanne Parker, J-e-a-n-n-e, Parker, has known
Bruce and Susan Zitka for more than 25 years.
She’s an employee of the Orchard View School.
She’s seen their activities including Bruce on the
school board, things of that type, all kinds of
communication with others that would be a
basis for reputation testimony as well as her
own opinion.
And then Brandy Carey, which I just discovered,
I don’t have a hard copy of this, Your Honor, so
my office was going to e-mail it to Mr. Grano
this morning, B-r-a-n-d-y, C-a-r-e-y, same long
term relationship, primarily be testifying about
Susan and her reputation and Ms. Carey’s opinion regarding truthfulness and honesty as well
as Susan being a law-abiding person.
If I can just check with my clients to make sure I
offered each witness, Your Honor?
THE COURT: You may. Let’s go off the record.
(Discussion off the record at 10:07 a.m.)
THE COURT: Just a minute. We’re back on the record.
I’m sorry, those were the eight?
MR. DODGE: Yes, Your Honor.

App.46a
THE COURT: All right. Same ruling. It looks like it’s
really reputation, truthfulness, honesty. There’s
no compliance here that I see with 404 and 405.
Should we end up going to a sentencing, these
are perfect people to come and testify to me, I
certainly would allow that in regard to sentencing
considerations. However, for the trial this testimony is certainly out of bounds and not relevant
and violates the Rules of Evidence, as far as I can
see. I certainly will now let the people address
this, but my ruling stands. We’ll allow, unless
there’s an objection, those subpoenas, one through
eight or A, B, C, et cetera, however you want to
number them, I will admit those to go with this
separate record for the Court of Appeals, if you
want that, but since they are excluded, I would
invite them, should we go to sentencing, if they
want to educate me on more information here,
but for these elements, there’s not one of these that
fit into an evidence solicited regarding the Norton
Shores city attorney case, the civil nuisance
abatement at the Landing Strip. The people have
instructed all of our witnesses, I just want to
remind defense, especially since the defendants
are going to be testifying, that we’re going to
stay away from that issue per the pretrial order.
Other than that, the people are ready to proceed.
MR. DODGE: Staying away from that issue, end of
quote, Your Honor, these folks never had a cease
and desist letter. If they would have had any
notification when they opened their first place,
they would have went and hired the family law
firm, Ron Pannucci’s office, and that office has
represented them like on some type of issue

App.47a
relating getting their phones hooked up or whatever their internet connection was, that he would
have been right there the same way he was with
Norton Shores, so are they going to testify about,
quote, Norton Shores, no? Are they going to testify
if they had any information, any question that
clouded whether they were doing things okay, they
would have done what they did, they would
have gone and talked to Attorney Pannucci and
they would have litigated it.
THE COURT: You know what, I think that’s okay.
You just need to stay away from that other
issue. They could say, I never knew, we never
knew that this was illegal. They can say that.
They’re subject to cross examination of whatever
they say. I think that’s fair game, but rather
than saying–mentioning the other letter, I think
we’re good.
MR. DODGE: But, Your Honor, on that, okay, what
would they have done? What would you have
done? We would have contacted an attorney to
ascertain whether or not what we were doing
was okay. If it weren’t, we wouldn’t be doing it.
The state never sent us a letter, so we open up
number two and three and they’ve taken a triple
loss here instead of just litigating, the AG office,
on one case the way they would have done.
They’ve got to have that. I mean, Your Honor,
that’s just part of the basic history of the case
and part of both of their testimony, as I anticipate
it.
THE COURT: Response.

App.48a
MR. GRANO: Your Honor, the order is specific. They
can’t talk about the City of Norton Shores saying
that this was a legal operation. If they want to
say they didn’t know–
THE COURT: Right.
MR. GRANO:–that this was illegal, they can say that
and I’ll cross them on that on documents we
found in their house. That’s fine.
THE COURT: I think all of what you said does come
in. It’s a question–the order is specific as to
Norton Shores so I don’t have a problem with
what you just said and they’re subject to cross
examination.
MR. DODGE: Well, Your Honor, there’s a boundary
issue that would be better addressed now rather
than having it objected to in addition to what
was just said. One of the agents, John Schaufler,
was confronted by Susan Zitka back in ‘16 saying
I know who you are, you’re from the state, contact
our attorney, he’ll tell you what happened with
Norton Shores.
MR. GRANO: Your Honor, I’ve been–
MR. DODGE: She–
MR. GRANO: Just as an offer of proof, I wasn’t going
to put that date into evidence and I’ve instructed
Mr. Schaufler that we’re not talking about anything that happened with Norton Shores and we’re
going to talk about the day he went in there and
played the games and that was it because we’re
limited by that order, and he’s been instructed
we’re not getting into that Norton Shores stuff.

App.49a
He understands that and we’re not going to go
near it.
MR. DODGE: But what about being confronted by
one of the defendants and saying, call our lawyer?
THE COURT: He can say call the lawyer. The only
thing they can’t testify to is Norton Shores. If
she said, call the lawyer, that’s what she said,
it’s evidence.
MR. DODGE: Okay.
THE COURT: Does that make sense? I don’t think
that line is blurred. Anything else?
MR. RIGGS: Judge, just since Mr. Schaufler is not
going to be questioned by us about it, to inquire
of Mr. Schaufler about what the defendants said,
that’s hearsay, and we aren’t going to go into
that, and because it relates to the Norton Shores
matter, he should not be going into it. If his
client wants to get on the stand and say–I don’t
know what she’ll say, I don’t really care what she’s
going to say, but my point is he can’t open the
door on that because the court’s already ruled
we’re not going into the Norton Shores matter.
We’re not relitigating that, and the Court of
Appeals agreed with you.
THE COURT: Right. We are not dealing with Norton
Shores, and if there is an issue of hearsay, make
your objections, but we need to steer clear of
Norton Shores. I would think that’s in everybody’s
best from.
MR. GRANO: Thank you.

App.50a
THE COURT: Anything else? On behalf of defendant,
sir?
MR. DODGE: Your Honor, under–just on the selection
of the jury, I just want to make sure I’ve got this
right, under 6.412, peremptory challenges, E, I
believe Bruce and Susan would each be entitled
to five so I just wanted to clarify that we have 10
peremptory challenges, Your Honor–up to 10.
Obviously we wouldn’t necessarily plan to use 10
but just to make sure–
THE COURT: That is the rule, as I recall. It’s 12 if
there’s one, 10 if there’s two, right?
MR. DODGE: So that–since it’s not a life imprisonment
or offense, Your Honor, each would be entitled to
five so I’m assuming that we have 10 and then I
can use up to that number of peremptory challenges when we pick the jury.
THE COURT: Let’s see, person is five. I’m looking at
the peremptory, five, you’re right, this isn’t life,
so five per person. I don’t have a problem with
five, regardless.
[ . . . .]

